No. 20-7935

IN THE SUPREME COURT OF THE UNITED STATES

WILMAR RENE DURAN GOMEZ, PETITIONER
v.

UNITED STATES OF AMERICA

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the reply brief for
petitioner contains 2,979 words, excluding the parts of the brief exempted by Supreme
Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 18, 2021.

/s/ Cullen Macbeth

Cullen Macbeth

Assistant Federal Public Defender
Federal Public Defender’s Office
District of Maryland

6411 Ivy Lane, Suite 710
Greenbelt, MD 20770

(301) 344-0600
cullen_macbeth@fd.org
